No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH PETERSON
PETITIONER
VS.
, STATE OF LOUISIANA
RESPONDENT(S)
APPENDIX
For convenience of the Court, please find the following documents enclosed:
APPENDIX “A” Opinion of the Louisiana Supreme Court
APPENDIX “B” Opinion of the Forth Circuit Court of Appeals, State of Louisiana

APPENDIX “A”

State v. Peterson | WestlawNext
Joseph Peterson

WESTLAW
*■

State v. Peterson
Supreme Court of Louisiana.

July 31. 2020

— So.3d —

2020 WL 4381846 (Mem)

2020-00248 (La. 7/31/20) (Appmx. 1 page)

2020 WL 4381846

Supreme Court of Louisiana.
STATE of Louisiana
v.

Joseph PETERSON
No. 2020-KO-00248
07/31/2020
IN RE: Joseph Peterson - Applicant Defendant; Applying For Writ Of Certiorari, Parish of
Plaquemines, 25th Judicial District Court Number(s) 14-2838, Court of Appeal, Fourth
Circuit, Numbers) 2018-KA-1045 C/W 2018-KA-1046. '
Opinion
*f Writ application denied.
All Citations
--- So.3d — 2020 WL 4381846 (Mem), 2020-00248 (La. 7/31/20)

End of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

i£:l) THOMSON REUTERS
Thomson Reuters iS'h&tproviding legal advice

r

of 1
9/8/20, 10:09 AM

®mtrf of ilp jifafp of^am%wm
,!

STATE OF LOUISIANA
No.2020-KO-00248

VS.
JOSEPH PETERSON

IN RE: Joseph Peterson - Applicant Defendant; Applying For Writ Of Certiorari,
Parish of Plaquemines, 25th Judicial District Court Number(s) 14-2838, Court of
Appeal, Fourth Circuit, Number(s) 2018-KA-1045 C/W 2018-KA-1046;
i

July 31,2020

-j

Writ application denied.
SJC
BJJ
JLW
JDH
JTG
WJC
JHB

'■i
■’■i

APPENDIX “B”

State v. Peterson | WestlawNext
Joseph Peterson

WESTLAW
State v. Peterson
Court of Appeal of Louisiana, Fourth Circuit.

January 8, 2020

289 So.3d 93 ; 2018-1045 (La.App. 4 Clr. 1/8/20) (Approx. 17 pages)

289 So.3d 93

Court of Appeal of Louisiana, Fourth Circuit.

STATE of Louisiana
v.
Joseph PETERSON
State of Louisiana
v.
Joseph Peterson
NO. 2018-KA-1045, NO. 2018-KA-1046
JANUARY 8, 2020

Synopsis
Background: Following a bench trial, defendant was convicted in the 25th Judicial District
Court, Plaquemines Parish, No. 14-2838, Michael D. Clement, J„ of three counts of
aggravated incest, and sentenced to 25 years at hard labor without benefit of parole,
probation, or suspension of sentence for each count, to be served concurrently. Defendant
appealed.

Holdings: The Court of Appeal, Sandra Cabrina Jenkins, J., held that:
1 sufficient evidence supported conviction, and
2 written stories depicting illegal sexual abuse of minor females by their fathers or
stepfathers, which were recovered from defendant's laptop computer, were properly
admitted.
Affirmed.
Appellate ReviewTrial or Guilt Phase Motion or Objection
; West Headnotes (17)
Change View
i

1

Criminal Law

Scope of Review in General

When issues are raised on appeal as to the sufficiency of the evidence and as to
one or more trial errors, the reviewing court should first determine the sufficiency
of the evidence.

i
2
j

Criminal Law
Criminal Law

Construction in favor of government, state, or prosecution
Reasonable doubt

!

Under the Jackson v. Virginia standard for reviewing sufficiency of evidence, the

:

relevant question is whether, after viewing the evidence in the light most

I
I

favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.

3

Criminal Law C™ Weight and sufficiency
In applying the Jackson v. Virginia standard for reviewing sufficiency of evidence,
Court of Appeal must consider the record as a whole, as the rational trier of fact
would do.

4

Criminal Law C™ Credibility of witnesses in general
In the absence of internal contradiction or irreconcilable conflict with the physical
evidence, even one witness's testimony, if believed by the rational trier of fact, is

l of 14
9/8/20,10:08 AM

State v. Peterson | WestlawNext
Joseph Peterson
sufficient to support a factual conclusion.
s
5

Criminal Law C*^ Weighing evidence
Criminal Law ©=» Credibility of Witnesses
The reviewing court is not permitted to second guess the rational credibility
determination of the trier of fact, nor is it the function of the appellate court to
reweigh the evidence.

6

;

7

Criminal Law ©=» Credibility of Witnesses
Criminal Law €=» Credibility of Witnesses
The determination of witness credibility is a question of fact within the sound

j

discretion of the trier of fact that shall not be disturbed unless clearly contrary to
the evidence.

I
I

Criminal Law ©=» Evidence considered; conflicting evidence
If, upon review of the record, the appellate court concludes that rational triers of

I

fact could disagree as to the interpretation of the evidence, then the rational trier's
view of all the evidence most favorable to the prosecution must be adopted.

8

Criminal Law C?5* Verdict unsupported by evidence or contrary to evidence
Only irrational decisions to convict by the trier of fact will be overturned on appeal.

9

Incest
Weight and sufficiency in general
incest €>=> Corroboration of testimony of female
Infants €r=> Indecent contact in general
Infants 0s3 Child statements and testimony
Sufficient evidence supported conviction for three counts of aggravated incest;
victim, defendant's stepdaughter, testified that defendant touched her genitals or
directed her to touch his genitals with the intention of arousing and gratifying him
sexually more than five times over a period of three or four years, beginning when
she was around seven years old, and that defendant frequently made her watch
pornography on his laptop computer, and victim's testimony was corroborated by
testimony of digital forensic examiner that pornographic websites and
pornographic written materials depicting inappropriate sexual behavior between
an adult and a young child were accessed and downloaded on defendant’s
laptop. La. Rev. Stat. Ann. § 14:78.1 (B)(2).

10

Criminal Law Cr53 Reception and Admissibility of Evidence
On appeal, a trial court's ruling on the admissibility of evidence is reviewed under
an abuse of discretion standard and will not be overturned absent a clear abuse
of discretion.

11

Criminal Law

Relevancy in General

Generally, all relevant evidence is admissible at trial. La. Code Evid. Ann. arts.
401,402.

12

Criminal Law ©=*

!

Evidence calculated to create prejudice against or

sympathy for accused
When an accused argues that certain evidence should be excluded because the
probative value is substantially outweighed by the danger of unfair prejudice, a
trial court is vested with much discretion in determining whether the probative
value of relevant evidence is substantially outweighed by the potential prejudicial
effect. La. Code Evid. Ann. art. 403.

i

2 of 14
9/8/20, 10:08 AM

State v. Peterson | WestlawNext

j
j

13

Joseph Peterson

Criminal Law €?=» Other Misconduct as Evidence of Offense Charged in
General

|
;

In general, evidence of other crimes, wrongs, or acts committed by the defendant
poses a substantial risk of grave prejudice to the defendant. La. Code Evid. Ann.
art. 404(B)(1).

14

Criminal Law £"* Purposes for Admitting Evidence of Other Misconduct
Evidence of other crimes, wrongs, or acts committed by the defendant may be
admissible when the evidence sought to be admitted provides proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, absence of mistake or

j
.

accident, or when the evidence relates to conduct that constitutes an integral part
of the act or transaction that is the subject of the present proceeding. La. Code
Evid. Ann. art. 404(B)(1).

15

Criminal Law Cf3 Sex offenses
Statute governing the admissibility of evidence of defendant's prior, similar
crimes, wrongs, or acts involving sexually assaultive behavior or acts which
indicate a lustful disposition toward children was enacted to loosen restrictions on
“other crimes" evidence, and to allow evidence of “lustful disposition” in cases
involving sexual offenses. La. Code Evid. Ann. art. 412.2.

;

I
16

Incest

Admissibility

Infants

Conduct, circumstances, and character of defendant
Written stories depicting illegal sexual abuse of minor females by their fathers or
stepfathers, which were recovered from defendant's laptop computer, were
properly admitted at bench trial for aggravated incest as evidence of defendant's
lustful disposition towards children and, in particular, sexual inclinations toward
young females living with or related to him; victim was defendant's stepdaughter,
acts and behavior depicted within the stories bore a noticeable similarity to the
charged offenses, and trial judge, as trier of fact, was trained in the law and was
able to disregard irrelevant or prejudicial matter. La. Code Evid. Ann. arts. 403,
412.2.

17

!.

Criminal Law
Evidence calculated to create prejudice against or
sympathy for accused
In balancing probative value of evidence against danger of unfair prejudice, the
term “unfair prejudice" speaks to the capacity of some concededly relevant
evidence to lure the factfinder into declaring guilt on a ground different from the
proof specific to the offense charged. La. Code Evid. Ann. art. 403.

*95 APPEAL FROM 25TH JDC, PARISH OF PLAQUEMINES, NO. 14-2838, DIVISION “B",
Honorable Michael D. Clement,
Attorneys and Law Firms
Charles Joseph Ballay, District Attorney, 25TH JDC, PLAQUEMINES PARISH, 102 Avenue
G, Belle Chasse, LA 70037, Pamela S. Moran, Assistant Attorney General, 1885 North Third
Street, P. O. Box 94005, Baton Rouge, LA 70804—9005, COUNSEL FOR STATE OF
LOUISIANA/APPELLEE
Bruce G. Whittaker, LOUISIANA APPELLATE PROJECT, 1215 Prytania Street, Suite 332,
New Orleans, LA 70130, COUNSEL FOR DEFENDANT/APPELLANT
(Court composed of Judge Edwin A. Lombard, Judge Sandra Cabrina Jenkins, Judge
Regina Bartholomew-Woods)
Opinion
JUDGE SANDRA CABRINA JENKINS

3 of 14

9/8/20,10:08 AM

State v. Peterson | WestlawNext

Joseph Peterson

**f The defendant, Joseph Peterson, appeals his conviction for three counts of aggravated
incest, in violation of La. R.S. 14:78.1.1 The defendant assigns two errors in this appeal,
arguing that the evidence is insufficient to sustain the conviction and that the trial court erred
in admitting certain evidence at trial. Upon review of the record and in light of applicable law
and jurisprudence, we find no merit to his assignments *96 of error. Accordingly, we affirm
his conviction.
PROCEDURAL BACKGROUND
On October 29, 2014, the defendant was charged by grand jury indictment with two counts
of aggravated incest of the juvenile victim, A.A.,2 between the dates of January 1, 2011 and
October 15, 2012. On December 8, 2014, the defendant appeared for arraignment, in case
number 14-02838, and pled not guilty to the two counts in the indictment.
2 On December 15, 2015, the defendant filed a motion in limine to exclude from evidence
written pornographic stories discovered on the defendant's laptop computer, seized pursuant
to a search warrant for the defendant's residence. The following day, the State filed a
response to the defendant's motion to exclude, arguing that the evidence was admissible
pursuant to La. C.E. art. 412.2.3 That same date, the trial court held a hearing on the
defendant's motion, but the trial court deferred ruling on the motion until trial. Shortly
thereafter, on December 21,2015, the defendant filed a notice of a request for a bench trial.
On May 30, 2017, the defendant was indicted on an additional count of aggravated incest of
the juvenile victim, A.A., occurring between December 1, 2012 and August 1, 2013. Under
case number 17-1835, the defendant appeared for arraignment on June 12, 2017, and pled
not guilty to the charge in the second indictment.
The two cases, 14-2838 and 17-1835, were consolidated for the purposes of trial. The
bench trial took place over three days, February 21 and 22, 2018, and March 9, 2018. On
the last day of trial, the State sought to admit the written pornographic material, which was
the subject of the defendant’s prior motion in limine. Over the defendant's objection, the trial
court admitted the evidence. At **3 the conclusion of trial testimony and arguments, the trial
court took the matter under advisement.
On March 28, 2018, the trial court rendered its verdict. Based upon the testimony and
■ evidence presented at trial, the trial court found the defendant guilty of all three counts of
aggravated incest, as follows: in case number 14-2838, (Count 1) aggravated incest by
committing indecent behavior with a juvenile, in violation of La. R.S. 14:78.1(B)(1); (Count 2)
aggravated incest by lewd fondling or touching, in violation of La. R.S. 14:78.1 (B)(2); and in
case number 17-1835, (Count 1) aggravated incest by lewd fondling or touching, in violation
of La. R.S. 14:78.1 (B)(2).
*97 On August 8, 2018, the defendant appeared for sentencing. Prior to sentencing the
defendant, the trial court noted that the victim in this case was a juvenile under the age of
thirteen years at the time of the offenses; and, pursuant to the applicable statute, the
sentence to be imposed would be not less than twenty-five years, without benefit of parole,
probation, or suspension of sentence, and not more than ninety-nine years. The trial court
then sentenced the defendant to the mandatory minimum sentence of twenty-five years at
hard labor without benefit of parole, probation, or suspension of sentence, as to each count,
to run concurrent.
The defendant now appeals his convictions. Before discussing the defendant's assignments
of error on appeal, we review the facts and evidence presented at trial.
STATEMENT OF FACTS
On October 19,2012, the nine year-old victim, A.A., reported to her fourth grade teacher,
Erin Cosse, that she was being sexually abused by her stepfather, the defendant. Ms.

.

Cosse testified that A.A.'s school behavior had changed in the **4 preceding week and that
she had asked A.A. if anything was wrong. At the end of the class day, A.A. told Ms. Cosse
she was ready to tell her what was wrong and asked to speak with her in the hallway. A.A.
then told Ms. Cosse that the defendant was sexually abusing her. Upon receiving this
information, Ms. Cosse brought A.A. to the school nurse, Rebecca Amos.
Ms. Amos testified that Ms. Cosse brought A.A. to her office and stated only that A.A. had

4 of 14

9/8/20, 10:08 AM

State v. 1 eterson | WestlawNext

t ,

r

Joseph Peterson

something she needed to tell her. Ms. Amos asked A.A. what was wrong, at which time A.A.
reported that her stepfather, the defendant, was sexually abusing her. Ms. Amos asked A.A.
to explain what she meant by that; and A.A. responded that the defendant showed her
videos of men and women naked together and that the defendant "touches me with my
clothes off.” When asked how recently the touching had occurred, A.A. stated "last Monday."
When asked if she had told anyone else, A.A. stated that she talked to her mother about
the situation", and her mother told her not to tell anyone outside the house about it. A.A.
also said she had told her sister, Lexi, who told her to "stop saying that stuff." At that point,
Ms. Amos contacted the Plaquemines Parish Sheriff’s Office f Sheriffs Office"), along with
the school principal and counselor.
V

Captain Mark Plumer testified that on October 19, 2012, he was employed by the Sheriffs
Office -,is captain of the Criminal Investigations Bureau. On that date, the office received a
call from the Belle Chasse Primary School that a student had reported being sexually
abused by her stepfather. Capt. Plumer, Detective Tiffanie Provenzano, and a patrol officer
were immediately dispatched to the school to investigate the reported sexual abuse.
Upon arriving at the school, Capt. Plumer interviewed school personnel while Det.
Provenzano spoke with A.A. and her mother. After gathering initial **5 statements at the
school, the officers decided to relocate to the Sheriffs Office with A.A. and her mother to
conduct further investigation. Based on the statements made by A.A., Capt. Plumer applied
for a search warrant of the residence where A.A. lived with her mother and the defendant.
Specifically, the search warrant sought computers, computer equipment, and any external
hard drives, based on statements from A.A. that the defendant had shown her pornographic
videos and images on his computer.
Capt. Plumer identified several photographs taken at the residence during the execution of
the search warrant; he described *98 photographs taken in the master bedroom that
depicted sexual lifestyle magazines, a box of sex toys, and commercial pornographic
videos. In regard to the computer equipment evidence, Capt. Plumer identified photographs
showing the large Hewlett-Packard ("HP") laptop computer and an external hard drive that
officers located in the defendant's work area and seized as evidence.
Captain Plumer stated that no family members were home during the execution of the
search warrant. In fact, during that time, the defendant voluntarily presented himself at the
Sheriffs Office. Capt. Plumer stated that the defendant denied having any knowledge as to
why A .A. would make sexual abuse accusations against him and he volunteered to leave
the family home. The defendant also volunteered to undergo a polygraph test. However, the
polygraph exam did not go forward because, according to the polygraph examiner, a
medical condition that caused twitching in the defendant's muscles could skew the results,
making the test unreliable.
Tracey Brunetti testified that in October 2012, she was employed by the Child Advocacy
Center in New Orleans as a child forensic interviewer. **6 On October 22, 2012, she
conducted a videotaped interview with A.A., which was offered, introduced, and played
during Brunetti's testimony. During that interview, A.A. informed her that the defendant
forced her to watch videos on his computer. A.A. described one video showing two naked
women and one naked man. A.A. stated that the defendant “constantly" showed such videos
to her, and that the defendant also encouraged her to watch such videos on her smaller
computer. A.A. further stated that she saw a photograph depicting her mother and the
defendant having sex.
A.A. relayed to Brunetti that on the previous Monday or Sunday, which would have been
October 15 81 or 14th, the defendant told her to lie next to him on the couch. She stated
that, at that time, her mother was at the store and her sister was in her room. During this
episode, the defendant put his hand on her vagina and placed her hand on his penis. The
touching took place over their clothing.
Brunetti asked A.A. to indicate on anatomical drawings of the female and male bodies where
the defendant had touched her body and where she had touched his body. On the female
diagram, A.A. circled the body parts where the defendant had touched her, including her
vagina, her breasts, and her belly button; and A.A. stated that the defendant touched these
body parts both over and under her clothing. On the male diagram, A.A. placed stars on the

5 of 14

9/8/20, 10:08 AM

State v. Paterson | WestlawNext
;

*»

is
\

\

Joseph Peterson

male body parts, including his penis, chest, and buttocks, where the defendant forced her to
touch him, both over and under his clothing.
Brunetti testified that during the interview A. A. cupped her hand and moved it up and down
to show the type of manual stimulation she performed on the defendant's penis. A.A. stated
that she had done this to the defendant more than once and that, after she did that, a white
substance came out that the defendant **7 referred to as pus. In addition, A.A. stated that
sometimes the defendant touched inside her vagina and sometimes he had her get on top of
him and put his penis inside her vagina.
Detective Holly Hardin testified that she is employed by the Plaquemines Parish Sheriff’s
Office, assigned to the special victims unit. She described herself as "the juvenile detective,
the sexrCrime detective, and domestic-violence detective." In March 2017, she was
contacted by the Attorney General's office and asked to coordinate a second forensic
interview of A.A. as part of an investigation into allegations that the *99 defendant had
sexually abused A.A. again in 2013. Det. Hardin scheduled A.A. to undergo a forensic
interview at the Child Advocacy Center in New Orleans.
At the time of the second videotaped forensic interview, on March 13, 2017, A.A. was
fourteen years old and in eighth grade at Belle Chasse School. A.A. stated that, after the
first series of sexual abuse incidents, the defendant returned to the family home and,
approximately six months later, the abuse happened again. She stated that it occurred in the
summertime of 2013, when she was ten or eleven years old. Once again, the abuse took
place on the family couch and, this time, she was alone in the house with the defendant.
A.A. stated that the defendant placed his hand on her vagina and he forced her to put her
hand on his penis. She stated that the touching took place under their clothing. She
described it as uncomfortable when he touched her. She recalled that this incident in the
summertime might have been the last incident of sexual contact with the defendant, and that
the defendant ultimately moved out of the family home and she had not seen him for two to
three years.
**8 Dr. Ellie Wetsman, who was accepted as an expert in child-abuse pediatrics, testified
that she saw A.A. on November 7, 2012, after the first report of sexual abuse, but she did
not perform a physical examination. Dr. Wetsman noted that a physical examination had
been performed at Children's Hospital on October 19, 2012, and there was no physical
evidence of sexual abuse. Dr. Wetsman explained that such a finding is not unusual in child
sexual abuse cases because that part of the body “stretches" and most child abuse
perpetrators are gentle because they do not want to cause physical injury.
Dr. Wetsman opined that most children do not report sexual abuse immediately after it
happens. Dr. Wetsman explained that, often, the child does not know that what is happening
is wrong, or the child is made to feel that she is at fault, or the child is threatened that if she
tells something bad will happen; and, consequently, when a child victim of sexual abuse
does report the incident, she will often report only a portion. Dr. Wetsman likened it to
’test[ing] the waters” to see if the story is believed or to see if something will happen with her
family. If the initial disclosure goes well, the child will gradually feel more comfortable telling
the rest of the story. Dr. Wetsman also opined that it was not unusual for a child not to
remember the details of each instance of abuse when she has been abused multiple times.
Dr. Wetsman did physically examine A.A. on March 22, 2017, after the second report of
abuse. The results of that examination were normal. Dr. Wetsman also took a narrative from
A.A., who informed her that she had been abused by the defendant once or twice since the
last time Dr. Wetsman had interviewed her. A.A. stated that the abuse took place when she
was alone in the house with the defendant and consisted of him touching her vagina and
forcing her "9 to touch his penis. When asked whether the defendant had ever hurt her,
A .A. answered affirmatively, explaining that he had tried to “stick" his penis in her vagina but
that “it did not go in all the way."
A.A. herself also testified. At the time of the trial, she was fifteen years old and in ninth grade
at Belle Chasse High School.4 She testified that she was five years old when she first met
the defendant and six or seven years old when the defendant *f 00 married her mother and
they lived together as a family.
A.A. recalled reporting to her fourth-grade teacher in October 2012, that she was being

6 of 14

9/8/20, 10:08 AM

State v. Paterson | WestlawNext
!

. '«

• i

^ \
i.

Joseph Peterson

sexually abused by the defendant. She testified that, by the time she reported the abuse in
October 2012, the abuse had been going on "fora couple of years." She admitted that she
did not have a perfect memory of everything that had happened between her and the
defendant. When asked how many times the abuse had taken place, she testified that it had
occurred more than five times; but, she was unsure if it had happened more than ten times.
When asked to explain what the defendant had done to her, A.A. testified that the defendant
would touch her and make her touch him. She explained further that the defendant would
touch her vagina under her clothes and he would make her touch his penis. The defendant
also touched her vagina with his penis, but that occurred "only a couple of times.”
A.A testified that the defendant also made her watch pornography. She explained that he
woul«. ;pull [the pornography] up on his computer and sit [the computer] in front of me and
leave the room and tell me to watch it.” She stated that he also showed her photographs of
himself and her mother in sexual situations. While watching the pornography, the defendant
would often have her change into **10 her robe with no clothes on underneath and he would
touch his penis until “white stuff would come out."
After reporting the sexual abuse in October 2012, A.A. remembered that the defendant
moved out of the house, but moved back in a few months later, in December 2012. She
explained that she knew having the defendant move back in would make her mother and
sister happy. She also recalled that the defendant had given the family a dog before he
moved back in. At some point after the defendant moved back in with the family, he began
sexually abusing her again. Although she could not recall the dates, she knew that it
happened after he moved back in because she had the dog by this time. She stated that the
defendant started touching her in the same ways that he had before he had moved out.
A A.'s mother testified that she was shocked when A.A. told her that the defendant had
showed her naked pictures on his computer, but she stated that she took no action because
they were economically dependent on the defendant, so she advised A.A. to 'hang tight."
The mother admitted, however, that sometimes the defendant was alone in the house with
A.A. The mother explained that A.A. had never personally told her that the defendant was
abusing her, only that he had forced her to watch pornography on his computer.
The mother recalled being called to A.A.'s school on October 19, 2012, and thereafter, going
to Children's Hospital so A.A. could be questioned and examined. At that point, the
defendant moved out of the house, but, subsequently, moved back into the family home.
Even after the initial report of problems, the mother stated that A.A. was sometimes left
alone in the house with the defendant.
The mother stated that initially she did not want to believe her daughter's sexual abuse
claims, but she realized that her daughter was not lying and had no **11 reason to lie
because coming out with the truth caused them significant financial hardship. The mother
admitted that she never witnessed the defendant sexually abusing A.A. or showing her
pornography. However, she had witnessed the defendant viewing pornography on his
computer and stated that sometimes she watched pornography with him in their bedroom.
*101 The mother also testified that A.A. had told lies in the past, often about "minor things"
such as cleaning her room, washing her clothes, taking a bath, or washing her hair.
Tran Buie Pogue, a digital forensic examiner with the Louisiana Attorney General's Office,
testified that she became involved in the instant case in June, 2013. At that time she was
given the defendant's laptop computer and external hard drive and told to look for “anything
relating to sexual behavior, anything inappropriate in nature.”
In performing her duties, Pogue obtained a printout of the computer's internet history. Pogue
highlighted the entries which represented a pornographic website, xnxx.com. There were
numerous highlighted entries and each entry, Pogue explained, represented a link and each
link led to a story. There were additional links to xnxx.com on the defendant's smart phone.
Pogue proceeded to read out the titles of eighty-six pornographic stories that the defendant
had accessed. Pogue explained that "user Joey Peterson" accessed these stories. However,
Pogue admitted that if a third party had access to "user Joey Peterson's" password, then
that person could have visited the sites.

7 of 14

9/8/20, 10:08 AM

person | WestlawNext

Joseph Peterson

Transcripts of eight of the pornographic stories were introduced into evidence. The
transcribed stories had the following titles: “A Father’s Love - Part Two,” “Daddy Loves His
Daughter," "Daddy and Daughter Amanda," “Amy and "12 Her Daddy Part 3," "Bonding with
Daddy," "A Step-Daughter of Lust," “Ashlee’s Young Life," and “Ashlee’s Young Life 2."
Pogue stated that she read the transcribed stories and that the titles fit the narratives; they
all depicted "inappropriate sexual behavior... between an adult and a young child."
S

However, Pogue's forensic examination did not reveal any child pornography on either the
■ defendant's computer or smart phone.
Pogue also performed a forensic examination on A.A.'s computer. Pursuant to her
examination, numerous links to the xnxx.com website were found.
A.A.’s sinter, Lexi, was called by defense counsel to offer testimony. She testified that both
she and A.A. initially had problems adjusting to having the defendant in their lives. Lexi
stated that A.A. and the defendant fought “like cats and dogs," often getting into screaming
arguments about A.A.'s messy room, about doing the dishes, and about hanging outside
' with her friends. Lexi believed that A.A. was sometimes scared of the defendant, even
though A.A. never told Lexi she was afraid.
Lexi testified that A.A. never told her that the defendant was sexually abusing her. However,
A.A. did tell Lexi that the defendant had shown her a rubber penis. Lexi estimated that she
was told about the penis a week or so before A.A. reported the abuse to her teacher. Lexi
admitted to initially doubting A.A.'s allegations, because A.A. was a little kid and would lie
frequently about things like whether she cleaned her room or washed the dishes. Lexi stated
that a part of her did not want to believe A.A. because they were living a great life.
Defense witness Alicia Mitchell, a supervisor with the Department of Children and Family
Services, testified that her department investigates complaints of child sex abuse and that
she was assigned to A.A.'s case. Mitchell stated that "13 following the department's initial
evaluation in 2012, the allegations were deemed to be invalid, the case was dosed, and the
mother was sent a letter to this effect. Two years later, on December 5, 2014, the
department undertook a second investigation and deemed the allegations to be valid.
Mitchell explained *102 that it was not until 2014 that the department received the narrative
of an interview with A.A. in which A.A. described the sexual abuse.
During the course of the trial, a voluminous amount of evidence was introduced into the
record, induding the video recordings and transcripts of A.A.'s forensic interviews, A.A.'s
medical records, computer forensic examinations and reports of the defendant's laptop and
A.A.'s mini-computer, numerous photographs, and printouts of the pornographic stories
found on the defendant's computer.

1

DISCUSSION
Defendant raises two assignments of error on appeal, as follows:

1. The trial court erred in denying the defendant's motion in limine to exdude written
materials seized from defendant's computer, as those materials were protected by the
First Amendment and were more prejudidal than probative.
2. The evidence presented at trial was insuffident to support the verdict beyond a
reasonable doubt.
We address the defendant's second assignment of error first, in accordance with Louisiana
jurisprudence that “(wjhen issues are raised on appeal as to the suffidency of the evidence
and as to one or more trial errors, the reviewing court should first determine the sufficiency
of the evidence." State v. Brazell, 17-0032, p. 9 (La. App. 4 Cir. 4/18/18), 245So.3d 15, 26
(dtations omitted).
"14 Sufficiency of Evidence
2
3
4 In evaluating the suffidency of the evidence to sustain a conviction, this
Court applies the standard of review set forth by the United States Supreme Court in
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560(1979). Under the Jackson
standard, “the relevant question is whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” 443 U.S. at 319, 99 S.Ct. at 2789. In

8 of 14

9/8/20, 10:08 AM

Joseph Peterson

erson | WestlawNext

::m^

testimony, ,fbeheved by me rations

■rKilusion.
4 cjr12/23/14)l 158 So.3d 142,148 (casing State v.

874 Sq 2(J 66 79); see state v. Sumnne-z*^s. 1 0-0341,
Sfafe v. Alvarez. 13-1652, p.
Robinson, 02-1869, p. 16 (La.
955 ("The testimony of the victim af<one is
p 7 (La. App. 4 Cir. 12/1/10), 52 So.3d 951
sufficient to establish the elements -of the offense.).
v

.

7

\

6

7

me reviewing court is "not permitted to second guess •Whe rational

8

, ...

Stafe v. Vessel!, 450 So.2d
court concludes that
evidence, then the rauonal
must be adopted^ 15 S
^^1

, ._nf fact nor is it the function of the appellate

^

court to

^ ^ disagree as to the interpretation of the
^ ^ ^ evjdence most favorable to the aorosocution
14.0939, p. 6 (La. App. 4 Cir. 3/11/15). 1 *33 So.3d 132,
^
^ ^ Qf factwlll be overturned."
*03 State v.

-

sT APP. * Cir. 9/12/12), 100 80.3d 332, 337 (citing

~ MuSsa„.

523 So.2d 1305, 1310 (La. 1988)9

o9rmeadedLan RS ^78.1 defined aggravated incest, in pertinent part, as follows:
hibited act enumerated in Subsection B
A. Aggrav
offender to be
with a person who
related to the offender as any
half-brother, half-sister, uncle, aunt, nephew, or
brother, sister,
grandchild of any degree,
niece.
B. The following are

prohibited acts under this Section,

a juvenile or a peraon

prosti(ution, or any other involvement of a child in

or touching of the person of either the child or the offender, done or
(2) Any lewd fondling
se or to satisfy the sexual desires of either the child,
submitted to with the intent to arou
the offender, or both.
I„ this case, the ",l

... RS. MtM.KBXS) By lewd tohdiicg
*l—'

■»

defined as follows:
is the commission of any of the following acts
**16 A. Indecent behavior with juveniles
sexual desires of either person:
intention of arousing or gratifying the
with the

(2) The transmission d^ive^orrUtteran^ofa^y^^ ^

The testimony adduce

, or oral
^ jmages tQ any person

d at trial indicated that the victim, A.A., was nine years old in October

9/8/20, 10:08 AM
of 14

State v. Pdterson | WestlawNext
Joseph Peterson
2012, when she first reported being sexually abused by the defendant, her stepfather, as
verified by the marriage certificate reflecting that he and A.A.’s mother were married on July

\

23, 2008, Thus, the record established the requisite relationship and age difference between
the defendant and A.A., under La. R.S. 1478.1(A).
Further, A.A. provided testimony describing lewd fondling and touching by the defendant of
her genitals and being directed by the defendant to touch his genitals with the intention of
i arousing and gratifying him sexually. A.A. testified that this abuse began "a couple of years’
'prior to and until her first reporting in October *104 2012, and that the abuse occurred again
when the defendant returned to live in the residence in December 2012, through the
summer of 2013. A.A. testified that the abuse occurred more than five times. This testimony,
if believed by a rational trier of fact, is sufficient to establish the elements of La R S
1478.1(B)(2).
**f 7 In addition to the sexual abuse by lewd fondling and touching, A.A. testified that the
defendant often made her watch pornography on his laptop computer and showed her
images of him and her mother naked, in sexual situations. Additional testimony from the
mother, stating that she and the defendant would watch pornography on his laptop
computer, and from Pogue, the digital forensic examiner, stating that pornographic websites
and pornographic written materials were accessed and downloaded by "user Joey Peterson"
to his laptop computer, provided corroboration of A.A.'s testimony. This testimony, if believed
by a rational trier of fact, is sufficient to establish the elements of indecent behavior with
juveniles, under La. R.S. 14:81 (A)(2), and, moreover, the elements of aggravated incest,
under La. R.S. 1478.1 (B)(1).
Several more trial witnesses provided testimony regarding A.A.'s reports of the sexual abuse
by the defendant, including her teacher, the school nurse, the forensic interviewer, and the
pediatrician who examined her. Although the defendant argues that A.A.'s testimony was
uncorroborated by the results of her physical examination and was internally inconsistent
regarding the exact dates of the abuse, the testimony of several witnesses reflected the
consistency of A.A.'s statements regarding the abuse by the defendant. Moreover, Dr.
Wetsman testified that it is not unusual for the physical examination of a child sex abuse
victim to be “normal" and for the child who has been sexually abused multiple times to have
difficulty recalling the details of each instance of sexual abuse.
In consideration of all the witness testimony and evidence introduced at trial, the trial court
concluded that the sexual abuse of A.A. by the defendant had occurred as reported and that
all essential elements of the charged offenses of aggravated incest, under La. R.S.
14.78.1(B)(1) and (2) were established. Upon "18 our review of the whole record, and
viewing the evidence in the light most favorable to the prosecution, we find that the evidence
was sufficient to convince the trial court that all of the essential elements of the offense of
aggravated incest had been proved beyond a reasonable doubt.
Admissibility of Evidence
We now turn to the defendant's first assigned error, arguing that the trial court erred in
denying his motion to exclude from trial the written pornographic stories, seized from the
defendant's computer. The defendant asserts that the trial court committed reversible error
in admitting the pornographic stories into evidence at trial.
Prior to trial, the defendant filed a motion to exclude written pornographic stories that were
discovered on his laptop computer, seized pursuant to the search warrant of the residence.
In his motion, the defendant admitted that the pornographic stories depict illegal sexual
abuse of minors, but he asserted that none of the materials seized from his computer
constituted illegal child pornography and that the stories constituted protected free speech
under the First Amendment of the United States Constitution. Further, the defendant argued
that such evidence was inadmissible character evidence under La. C.E. art. 404(B)(1),
because his possession of the stories is not probative of any criminal acts and would be
used only to attack his character and credibility. Finally, the *f05 defendant argued that the
evidence must be excluded ultimately under La. C.E. art. 403, because the danger of unfair
prejudice substantially outweighed any probative value of the evidence as it relates to the
charged offenses.
In response, the State argued that the written pornographic stories, which specifically

10 of 14
9/8/20,10:08 AM

State v. Pejterson | WestlawNext

I

4?

Joseph Peterson

depicted sexual abuse of minor females by their fathers/stepfathers, "19 were admissible
under La. C.E. art. 404(B)(1), as proof of the defendant's intent and motive to sexually
abuse his stepdaughter, and under La. C.E. art. 412.2, as evidence indicating the
defendant's lustful disposition toward minor females.
After a lengthy hearing on the defendant's motion, the trial court deferred ruling on the
i admissibility of the pornographic stories until trial. Subsequently, during the trial testimony of
\Pogue, the digital forensic examiner, the trial court admitted eight of the stories found on the
defendant's computer into evidence, over the defendant's objection. The record indicates
that the trial court admitted the evidence under La. C.E. art. 412.2.5
10

dn appeal, a trial court's ruling on the admissibility of evidence is reviewed under an

abuse of discretion standard and will not be overturned absent a clear abuse of discretion.
State v. Klein, 18-0022, p. 19 (La. App. 4 Cir. 8/22/18), 252 So.3d 973, 985; State v. Wright,
11-0141, pp. 10-1.1 (La. 12/6/11), 79 So.3d 309, 316.
11
12 Generally, all relevant evidence is admissible at trial; that is, 'evidence having
any tendency to make the existence of any fact that is of consequence to the determination
of the action more probable or less probable than it would be without the evidence." La. C.E.
arts. 401, 402. Evidence that is not relevant is not admissible. La. C.E. art. 402. Additionally,
evidence, although relevant, “may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, or misleading the
jury." La. C.E. art. 403. When an accused argues that certain evidence should be excluded,
pursuant to "20 La. C.E. art. 403, because the probative value is substantially outweighed
by the danger of unfair prejudice, a trial court is vested with much discretion in determining
whether the probative value of relevant evidence is substantially outweighed by the potential
prejudicial effect. State v. Dove, 15-0783, p. 29 (La. App. 4 Cir. 5/4/16), 194 So.3d 92, 112.
13
14 However, the trial court may not admit evidence of other crimes, wrongs, or acts
committed by the defendant for purposes of showing the defendant as a man of bad
character who has acted in conformity therewith. La. C.E. art. 404(B)(1); State v. Rose,
06-0402, p. 12 (La. 2122107), 949 So.2d 1236, 1243. Our jurisprudence recognizes that, in
general, evidence of other crimes, wrongs, or acts committed by the defendant poses a
“substantial risk of grave prejudice to the defendant." Klein, 18-0022, p. 18,252 So.3d at
985; State v. Williams, 96-1023, p. 30 (La. 1/21/98), 708 So.2d 703, 725; State v. Prieur, 277
So.2d 126,128 (La. 1973). However, La. C.E. art. 404(B)(1) provides exceptions to the
general rule of inadmissibility, when the evidence sought to be admitted provides proof of
motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake or
accident, or "when the evidence relates to conduct that ‘106 constitutes an integral part of
the act or transaction that is the subject of the present proceeding.” Klein, 18-0022, p. 18,
252 So.3d at 985.
15

In addition, as recognized by Louisiana jurisprudence, a further exception to the

general rule against the admission of other crimes, wrongs, or acts evidence was created by
the Louisiana Legislature through the enactment of La. C.E. art. 412.2, which provides:

A. When an accused is charged with a crime involving sexually assaultive
behavior, or with acts that constitute a sex offense involving a victim who was
under the age of seventeen at the time of "21 the offense, evidence of the
accused s commission of another crime, wrong, or act involving sexually
assaultive behavior or acts which indicate a lustful disposition toward
children may be admissible and may be considered for its bearing on any
matter to which it is relevant subject to the balancing test provided in Article
403.

In State v. Wright, the Louisiana Supreme Court recognized that "Article 412.2 was enacted
to loosen restrictions on 'other crimes' evidence, and to allow evidence of 'lustful disposition’
in cases involving sexual offenses." 11-0141, p. 13 (La. 12/6/11), 79 So.3d 309, 317. “Thus,
evidence of defendant's other acts which involve sexually assaultive behavior or acts which
indicate his lustful disposition towards children may be admissible." Wright, 11-0141, p. 11,
79 So.3d at 316 (holding other crimes/acts evidence admissible under La. C.E. art. 412.2 as

11 Of 14

9/8/20, 10:08 AM'

State v. Peterson | WestlawNext

A

i

Joseph Peterson

it demonstrated the defendant's propensity for sexual activity with adolescents where he
held a position of authority, and where the adolescent children were in his household).

\

In State v. Farrier, 14-0623 (La. App. 4 Cir. 3/25/15), 162 So.3d 1233, the defendant was
convicted of sexual battery of an unrelated, six-year old girl who resided with him in the
same home; on appeal, he argued that the trial court erred in admitting a jailhouse
.telephone recording, in which he made statements about watching child pornography,
because it was substantially more prejudicial than probative under La. C.E. art. 403. In
reviewing the admissibility of the evidence, this Court discussed the applicability of La. C.E.
art. 404(B)(1) and the exception within La. C.E. art. 412.2 to the facts of the case, stating as
follows:
Unquestionably, Mr. Farrier has been charged with acts that constitute a sex offense
involving a victim who was under the age of seventeen at the time of the offense. As
charged here, the specific offense for which Mr. Farrier was on trial required the
prosecution to prove beyond a reasonable doubt that Mr. Farrier intentionally touched the
anus or genitals of [victim] without her consent. See **22 La. R.S. 14:43.1A(1). And, of
course, Mr. Farrier is an adult male, and [victim] was six years old at that time.
Here, the recording speaks directly to Mr. Farrier's lustful disposition towards children.
Notably, in this conversation, Mr. Farrier does not tell his listener that the allegations of
him watching child pornography are false; he is loudly silent about the truth of the
allegations and instead cannot fight "this” and hopes for leniency as "a first offender.” Mr.
Farrier's statements are also relevant to his prosecution to confirm [victim's] videotaped
forensic interview and testimony at trial that Mr. Farrier would show her child pornography
and then have [victim] imitate what was done on the video.
Farrier, 14-0623, pp. 14-15, 162 So.3d at 1243. Under the facts of the case, given that the
defendant's other acts/statements indicated a lustful disposition toward children, this Court
found that the trial court *107 did riot abuse its discretion in finding that the evidence did not
warrant exclusion under La. C.E. art. 403 and allowing the admission of the jailhouse call.
Id.
Also, in State v. Klein, supra, this Court found no abuse of discretion in the trial court's
admission of other crimes evidence, under La. C.E. art. 412.2, at the trial of the defendant
charged with multiple counts of child pornography. The defendant argued that the trial court
erred in allowing testimony from his adult children that they were sexually abused by the
defendant as young children. The defendant argued that, because the charged offenses of
possession of child pornography are more passive and less violent than the sexual abuse
described in the testimony of his children, any probative value of the testimony was
substantially outweighed by the prejudicial effect. This Court disagreed; in particular, this
Court noted that ”[t)he behavior depicted on the videos is strikingly similar to the acts
described by [defendant's adult children].” Klein, 18-0022, p. 21, 252 So.3d at 986.
16 **23 In this case, as admitted by the defendant, the written stories depict illegal sexual
abuse of minor females by their fathers or stepfathers. While we acknowledge that the
defendant's possession of written stories depicting sexual abuse is not illegal, the acts and
behavior depicted within the stories bare a noticeable similarity to the charged offenses in
this case. His possession of these pornographic stories involving minor children indicates,
generally, a lustful disposition towards children and, in particular, sexual inclinations towards
young females living with or related to him. Thus, under the facts and circumstances of this
case, the evidence would fall within the exception provided by La. C.E. art. 412.2, as found
by the trial court.
17

We also do not find the evidence to be more prejudicial than probative under La. C.E.

art. 403. Regarding the balancing between the probative value of evidence and the danger
of unfair prejudice, the Louisiana Supreme Court has stated, ”[t]he term 'unfair prejudice,' as
to a criminal defendant, speaks to the capacity of some concededly relevant evidence to
lure the factfinder into declaring guilt on a ground different from the proof specific to the
offense charged.” Wright, 11-0141, p. 15, 79 So.3d at 318 (quoting Rose, 06-0402, p. 13,
949 So.2d at 1244). In this case, the evidence admitted was relevant and probative to show
the defendant's lustful disposition toward children, in particular a stepdaughter, in scenarios
similar to those described by A.A. in her forensic interviews and in her testimony. Thus, we

12 of 14

9/8/20, 10:08 AM

State v. Peterson | WestlawNext
Joseph Peterson

l:

do not find this evidence to be extraneous. We also do not find that the admission of this

/> \

evidence would "lure the factfinder” away from its duty to find proof beyond a reasonable
doubt specific to the charged offense of aggravated incest of A.A. See id. Lastly, in
consideration that this was a bench trial as requested by the defendant, we note that the trial
V ,u°9e «> 'trained in the -24 law and is able to disregard irrelevant and possibly prejudicial
\matter." State v. Crothers, 278 So.2d 12, 15; see State v. Herrin. 562 So.2d 1 7 (La App
tstCir. 1990).
‘
Based on our review of the evidence introduced at trial, in light of the applicable statutes and
junsprudence, we do not find that the trial court abused its discretion in allowing the written
pornographic stories discovered on the defendant's computer to be admitted into evidence
under La. C.E. art. 412.2. In addition, we do not find the trial court abused Its discretion in
finding the probative value of the evidence outweighed its prejudicial effect. This assignment
of error has no merit.
•108 CONCLUSION
For the foregoing reasons, we find no merit in the defendant's assignments of error raised
on appeal. Accordingly, we affirm the defendant's conviction and sentence for three counts
of aggravated incest.
AFFIRMED.

All Citations
289 So.3d 93, 2018-1045 (La.App. 4 Cir. 1/8/20)

| Footnotes
Effective June 12, 2014, La. Acts 2014, Nos. 177 and 602, repealed La R S
14:78.1 "aggravated incest,” and amended and reenacted La. R.S. 14:89.1,
aggravated crime against nature,” to include the elements and penalties of
the crime of aggravated incest. Thus, "aggravated incest" was redesignated
“aggravated crimes against nature" under La. R.S. 14:89.1. "No change in the
substantive proscriptions of Louisiana law were effected—only the placement
of the conduct constituting the offense in the aggravated crime against nature
offense and the repeal of the offense of Aggravated Incest." State v. Barbain,
15-0404, p. 2, n. 3 (La. App. 4 Cir. 11/4/15), 179 So.3d 770, 773 (citation
omitted).
2

In this opinion, the initials of the victim, rather than the full name of the minor
child, are used to protect and maintain the privacy of the minor child. See La.
R.S. 46:1844(W)(1); Rule 5-2, Uniform Rules, Courts of Appeal.

3

La. C.E. art. 412.2 provides as follows:
A. When an accused is charged with a crime involving sexually assaultive
behavior, or with acts that constitute a sex offense involving a victim who
was under the age of seventeen at the time of the offense, evidence of the
accused s commission of another crime, wrong, or act involving sexually
assaultive behavior or acts which indicate a lustful disposition toward
children may be admissible and may be considered for its bearing on any
matter to which it is relevant subject to the balancing test provided in Article
403.
B. In a case in which the state intends to offer evidence under the provisions
of this Article, the prosecution shall, upon request of the accused, provide a
reasonable notice in advance of trial of the nature of any such evidence it
intends to introduce at trial for such purposes.
C. This Article shall not be construed to limit the admission or consideration
of evidence under any other rule.

4

5

Prior to her testimony, the parties stipulated that A.A. was competent to testify.
In ruling, the trial court stated that the evidence was being admitted under "[La.

L3 of 14
9/8/20, 10:08 AM

State v. Peterson | WestlawNext
Joseph Peterson
i

I *
C.E. art.] 412.” In consideration of the motion and arguments presented, it is
apparent from the record that the trial court was referring to La. C.E. art
412.2, regarding the admissibility of similar crimes, wrongs, or acts in sex
offense cases. See infra n. 2.

\

va

\
•i

End of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. ©2020 Thomson Reuters

tfii Thomson narreas

Thomson Reuters ti-mf providing legal advice

.4 of 14
9/8/20,10:08 AM

i':
j

O
n;

Office Of The Clerk

Court of Appeal, Fourth Circuit

■i

State of Louisiana
Justin I. Woods
Clerk of Court

Mailing Address:
410 Royai Street
New Orleans, Louisiana.
70130-2199
(504)412-6001
FAX (504) 412-6019

400 Royal Street
Third Floor

JoAnn Veal
Chief Deputy Clerk of Court

NOTICE OF JUDGMENT AND
CERTIFICATE OF MAILING

:
■}

l

I CERTIFY THAT A COPY OF THE OPINION IN THE BELOW-NUMBERED MATTER HAS BEEN MAILED
ON OR DELIVERED THIS DAY 01/08/2020 TO THE TRIAL JUDGE, COUNSEL OF RECORD AND ALL
PARTIES NOT REPRESENTED BY COUNSEL, AS LISTED BELOW:

i

;l

:
\

JIW/sw
JUSTIN I. WOODS
CLERK OF COURT
\

2018-KA-1045
C/W: 2018-KA-1046
Charles Joseph Ballay, District Attorney
DISTRICT ATTORNEY'S OFFICE, 25TH
JDC, PLAQUEMINES PARISH
102 Avenue G
Belle Chasse, LA 70037
Pamela S. Moran
ASSISTANT ATTORNEY GENERAL

Bruce G. Whittaker
LOUISIANA APPELLATE PROJECT
1215 Prytania Street, Suite 332
New Orleans, LA 70130

1
1

